No. 20-843

In the Supreme Court of the United States
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC., ET AL.,
Petitioners,
v.
KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF NEW YORK STATE POLICE, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE As required by Supreme Court Rule 33.1(h), I

certify that the Brief of Amicus Curiae Mountain States Legal Foundation’s Center
to Keep and Bear Arms in Support of Petitioner contains 7,959 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 16, 2021.
/s/ Cody J. Wisniewski
Cody J. Wisniewski
Counsel of Record
MOUNTAIN STATES
LEGAL FOUNDATION
2596 South Lewis Way
Lakewood, Colorado 80227
(303) 292-2021
cody@mslegal.org
Attorney for Amicus Curiae

